1301 Pennsylvania Avenue NW
Washington, D.C. 20004
United States

Paul D. Clement
To Call Writer Directly:
+1 202 389 5000
paul.clement@kirkland.com

Facsimile:
+1 202 389 5200

+1 202 389 5000
www.kirkland.com

April 8, 2020
By Electronic Filing and Overnight Delivery
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re: National Collegiate Athletic Association, et al. v. New Jersey Thoroughbred
Horsemen’s Association, Inc., No. 19-1114
Dear Mr. Harris:
Pursuant to this Court’s order dated March 19, 2020, petitioners in the above-captioned
case respectfully request that the Court delay distribution of the petition for writ of certiorari until
April 28, 2020, and set it for consideration at the conference on May 14, 2020. The petition is
currently scheduled for distribution on April 15, 2020, for consideration at the conference on May
1, 2020.
Petitioners—the National Collegiate Athletic Association, the National Basketball
Association, the National Football League, the National Hockey League, and the Office of the
Commissioner of Baseball—are presently dealing with the significant impact on their operations
caused by the COVID-19 pandemic, which has complicated their ability to meaningfully confer
with counsel on the certiorari-stage reply brief in this case. The requested delay thus will permit
petitioners to prepare a submission that will be most helpful to the Court.
Respondent has consented to a one-week delay in the distribution of the petition, but it has
opposed a two-week delay out of concern that the extra week may prevent this Court from making
a decision on the petition this Term. It is petitioners’ understanding, however, that the Court is
still maintaining its ordinary distribution and conference schedule, in which case that should not
be a concern.

Beijing

Boston

Chicago

Dallas

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

Paris

San Francisco

Shanghai

Scott S. Harris
April 8, 2020
Page 2
Respectfully submitted,

Paul D. Clement
paul.clement@kirkland.com

cc:

Counsel of Record

